fan

C@OCKLE

Legal Briefs E-Mail Address:

contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214 Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No.

JOHN D. LEONTARITIS,
Petitioner,
Vv.
UNITED STATES OF AMERICA,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 17th day of May, 2021, send out
from Omaha, NE | package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar
days. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
FEDERICO REYNAL CHARLES R. FLORES
LYNN HARDAWAY Counsel of Record
FERTITTA REYNAL LLP NICHOLAS M. BRUNO
815 Walker Street, HANNAH L. ROBLYER.
Suite 1553 BECK REDDEN LLP
Houston, Texas 77002 1221 McKinney Street,
(713) 228-5900 Suite 4500

Houston, Texas 77010
(713) 951-6236
cflores@beckredden.com
Counsel for Petitioner

Subscribed and sworn to before me this 17th day of May, 2021.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

‘My Comm. Exp. September 5, 2023

 

= Onda Cale

 

Notary Public Affiant 40983
 

SERVICE LIST

Elizabeth Prelogar :

Acting Solicitor General of the United States
U.S. Department of Justice

Room 5616

950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001

(202) 514-2217

supremectbriefs@usdoj.gov
